No. ______

IN THE SUPREME COURT OF THE UNITED STATES
____________________
RICHARD NATOFSKY
Petitioner,
v.
THE CITY OF NEW YORK,
Respondent.
_________________
APPLICATION FOR EXTENSION OF TIME TO FILE A
PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT
_________________
To the Honorable Ruth Bader Ginsburg
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Second Circuit
Michael L. Foreman
Penn State Law
Civil Rights Appellate Clinic
329 Innovation Blvd., Suite 118
University Park, PA 16802
(814) 865-3832
Counsel of Record

Samuel O. Maduegbuna
William Cowles
30 Wall Street, 8th Floor
New York, NY 10005
(212) 232-0155
Attorneys For Richard Natofsky

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, Richard Natofsky is an individual.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1).

To the Honorable Ruth Bader Ginsburg, Associate Justice of the
Supreme Court of the United States and Circuit Justice for the United
States Court of Appeals for the Second Circuit:
Applicant-Petitioner, Richard Natofsky, respectfully requests an extension of
time to file a petition for writ of certiorari. Sup. Ct. R. 13.5. The earliest deadline for
Applicant-Petitioner to file his petition is Monday, October 7, 2019, which is ninety
days from Tuesday, July 09, 2019, the date the Second Circuit denied the petition for
rehearing en banc. For good cause set forth herein, Applicant-Petitioner requests this
deadline be extended by sixty days so that the new deadline would be Friday,
December 06, 2019.
BACKGROUND
This case arises from allegations of disability discrimination, under the
Rehabilitation Act of 1973 (the "Rehabilitation Act"), by the City of New York and
other city officials (“Respondents”). Natofsky v. City of New York, 921 F.3d 337, 346
(2nd Cir. 2019), rehearing en banc denied July 7, 2019; see also Natofsky v. City of
New York, No. 14 CIV. 5498 (NRB), 2017 WL 3670037, at *12 (S.D.N.Y. Aug. 8, 2017).
Applicant-Petitioner (“Natofsky”) alleged Respondents discriminated against him on
the basis of his disability, a severe hearing impairment, when Respondents gave him
negative performance reviews and ultimately demoted him with a substantial pay
cut. The negative performance reviews were based on Natofsky’s failure to quickly
respond to emails, which Natofsky had previously informed Respondent Shaheen
Ulon was due to his disability. Natofsky alleged he was unable to respond to emails
during meetings because his severe hearing impairment required him to focus on
1

what the speaker was saying. Even with his hearing devices, Natofsky needed to focus
on the speaker’s words—and sometimes lips—to understand what was being said.
This caused a delay in his email responses and eventually led to his negative
performance reviews, demotion, and pay cut.
The district court granted Respondents’ motion for summary judgement on all
claims

under

the

Rehabilitation

Act.

Addressing

Natofsky’s

employment

discrimination claim, the District Court held that Natofsky failed to show that
Respondent Ulon’s negative performance reviews were "motivated solely by disability
discrimination [,]” and that he was demoted for a discriminatory reason. Natofsky,
2017 WL 3670037 at *11-13. On appeal, the Second Circuit addressed the causation
standard for employment discrimination claims under the Rehabilitation Act. The
Second Circuit held the Rehabilitation Act incorporated the Americans with
Disabilities’ (“ADA”) causation standard for claims of employment discrimination on
the basis of disability. Natofsky, 921 F.3d at 346. Additionally, the Second Circuit
held the ADA’s “on the basis of disability” language was identical in meaning to Title
VII’s “because of” language. Id. at 349. Thus, the Second Circuit concluded the butfor standard—not the mixed motive standard—applied to the ADA and the
Rehabilitation Act for claims of employment discrimination. Natofsky’s Motion for
Rehearing En Banc was denied by the Court.
OPINION BELOW
Pursuant to Supreme Court Rule 13.5, a copy of the District Court opinion is
attached as Appendix A; a copy of the April 18, 2019 Second Circuit majority and

2

dissenting opinions are reproduced at Appendix B, and the July 09, 2019 Second
Circuit denial for a rehearing en banc is reproduced at Appendix C.
REASONS EXTENSION IS JUSTIFIED
The specific reasons why an extension of time is justified are as follows:
1. The Penn State Law Civil Rights Appellate Clinic has only recently
agreed to serve as co-counsel for Applicant-Petitioner in this matter;
and this matter is unusual based upon its complexity and its record.
2. Given the record in this case and the fact that the Penn State Civil
Rights Appellate Clinic has only recently agreed to serve as co-counsel,
additional time is necessary and warranted to allow new counsel to
fully review the record, analyze the significance of the issues
presented, and prepare a focused and concise petition for certiorari for
this Court’s review.
3. The ADA, as incorporated by the Rehabilitation Act, is currently
engulfed in confusion regarding the application of the but-for and
mixed motive causation standards for cases of employment
discrimination on the basis of disability. This confusion has caused the
federal courts to have conflicting standards of causation in similar
cases of employment discrimination. On August 20, 2019, the Ninth
Circuit in Murray v. Mayo Clinic overruled its precedent in Head v.
Glacier Northwest, Inc., 413 F.3d 1053 (9th Cir. 2005), and held that
the motivating factor causation standard is no longer applicable in

3

claims of employment discrimination under the ADA. Murray v. Mayo
Clinic, No. 17-16803, 2019 WL 3926945, at *6 (9th Cir. Aug. 20, 2019).
Because of the Ninth Circuit’s recent decision in Murray, additional
time is warranted to better understand the overlap of issues between
the Ninth Circuit’s decision in Murray and the issues presented in
Natofsky’s case.
4. The Court has keen interest in clarifying issues of causation under
federal employment discrimination laws. Just this year, this Court has
granted certiorari in two cases, Babb v. Wilkie and Comcast Corp. v.
Nat'l Ass'n of African Am. Owned Media, both cases involving similar
issues of causation. See Babb v. Wilkie, 139 S. Ct. 2775 (2019)
(granting certiorari to clarify the proper causation standard under the
Age Discrimination in Employment Act of 1969); see also Comcast
Corp. v. Nat'l Ass'n of African Am. Owned Media, 139 S. Ct. 2693
(2019) which is set for argument on Nov. 13, 2019 (granting certiorari
to clarify the proper causation standard under 42 U.S.C. § 1981).
5. The additional time will also permit counsel to thoroughly analyze the
briefs in Babb and Comcast and to hear the Court’s concerns regarding
the appropriate causation standard in these cases which address a
similar issue as the one that would be presented to the Court in this
case.
6. No prejudice would result from this extension.

4

CONCLUSION
For the foregoing reasons and good cause shown, Applicant-Petitioner
respectfully requests Your Honor grant this application to extend the time to file a
petition for writ of certiorari to Friday, December 06, 2019.
Respectfully submitted,
/s/ Michael L. Foreman
Michael L. Foreman
Penn State Law
Civil Rights Appellate Clinic
329 Innovation Blvd. Suite 118
University Park, PA 16802
(814) 865-3832
Samuel O. Maduegbuna
William Cowles
30 Wall Street, 8th Floor
New York, NY 10005
(212) 232-0155
Counsel for Richard Natofsky
Dated: September 25, 2019

5

